No.

Supreme Court of the United States

PETITION FOR WRIT OF CERTIORARI



QUESTION(S) PRESENTED

PARTIES TO THE PROCEEDING

STATEMENT OF RELATED CASES

TABLE OF CONTENTS

TABLE OF AUTHORITIES
CASES

STATUTES

RULES

CONST. PROVISIONS

OTHER AUTHORITIES

OPINIONS BELOW

JURISDICTION

RELEVANT PROVISIONS INVOLVED

STATEMENT

“We learned from the Enterprises
that neither views its responsibilities to include testing whether its
servicers comply with legal and regulatory requirements. According
to the Enterprises, their long-standing business relationships with
mortgage servicers, the servicers’ familiarity with the Enterprises’
servicing requirements, and their continual contact with servicers
give them confidence that servicers are well-informed of their legal
and contractual obligations under the CARES Act and implementing
guidance. The Enterprises rely on representations and warranties
made by each servicer that it complies with applicable law and
regulations. A breach of these representations and warranties can
lead an Enterprise to invoke contractual remedies. In addition, each
Enterprise reported to us that it obtains an annual certification from
each servicer that it complies with applicable law and regulations.
FHFA advised us that it considered this oversight acceptable

weighing “the private interest that will be
affected by the official action” against the government’s
asserted interest, “including the function involved” and
the burdens the government would face in providing
greater safeguards

“Congress intended FHFA to “exercise [its]rights,
powers, and privileges” as conservator without
being “subject to the direction or supervision of
any other agency of the United States or any state.
12 U.S.C. §4617(a)(7) these “rights, powers and
privileges expressly include the “transfer or sale of
any GSE asset without approval, assignment or
consent.

REASONS FOR GRANTING THE PETITION

A. The Question Presented Is Exceptionally
Important And Warrants Review In This Case

“The Constitution constrains
governmental action by whatever instruments or in
whatever modes that action may be taken. And under
whatever congressional label.”

B. The Decision Below Is Erroneous – State Is An
Actor

The lenders create their pools and place loans into them.
The lender creates, you know, their
pools and puts loans into the pools. So FNMA does not
make, you know, does not always make those allocations

A. I mean, you
know, we hear the term swapping loans for MBS. So the
practice of Countrywide, they’re a very large lender and so
they would – their business practice was generally to
securitize loans or swap loans for MBS. Q. MBS security? A.
MBS securities, yes. Q. And so the security would go back to
Countrywide? A. Correct. Q. Countrywide would then sell
the securities? A. Correct.

? A. I don’t believe that it’s
operationally, I think it would be very cumbersome for us to
assign things into all these various trusts. We create so many
of them each month, each year. So I believe it’s just into
FNMA. A. My recollection of the [servicing guide] is that it
doesn’t really talk about assigning anything into individual
trusts.

Q. I guess I would
ask if it’s not in the trust, then what does the trust hold? A.
I mean, maybe that’s a little bit outside of my knowledge in
terms of the legal nuances of, you know…Q. So if the trust
holds nothing, then it holds nothing? A. Yes.

Q So what does
that mean? What’s the difference between paid and
consideration given? So no money exchanged hands? A.
That’s right. I mean, we basically – you know, we took
ownership of the property. Q. And in doing so, you did not
receive any consideration? A. Well, the property. Q. You
didn’t pay any consideration? A. Right.
) Q. With respect to Exhibits 6-A, 7, 8-A and 8-B you
don’t have any knowledge as to whether the servicer
complied with any of these one way or the other with respect
to Debra Brown’s mortgage? A. I do not know that, right.
Q. And you have not seen any documents as to whether they

complied or not? A. Correct. Q. Or is any of this that
FNMA needs to do? A. These are servicer responsibilities.
Q. Does FNMA have any responsibilities with respect to
foreclosure? A. We delegate the decision making to the
servicer. (APP 185, page 144) Q. So tell me how this works
A. The Servicer will determine the bid price [according to]
how it is laid out in our guide. Q. Once that decision is made
and once the bid is made and once it’s the high bid, what
happens? A. The property is reverted into Fannie Mae’s
REO inventory. Q. But no money exchanges hands A.
Correct. Q. Because Fannie Mae buys the property for itself
A. Essentially. (APP 813, page 234-236)

CONCLUSION

